November 25, 2002

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

JON M. STEELE
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT:     Audit Report – Highway Network Scheduling – Northeast Area
             (Report Number TD-AR-03-002)

                                     Background
On July 5, 2002, the Office of Inspector General (OIG) announced an audit of highway
network scheduling (Project Number 02YG017TD000). The announcement responded
to a request from the vice president, Network Operations Management. This is the
second in a series of reports. It focuses on the Northeast Area.




               Highway contract route at Northwest Boston Processing and
            Distribution Center, Waltham, Massachusetts, September 10, 2002.




                                    Restricted Information
Highway Network Scheduling – Northeast Area                                      TD-AR-03-002



                        Objective, Scope, and Methodology
The objective of our audit was to evaluate the effectiveness of scheduled highway
contract routes, and to identify opportunities for cost savings. The vice president,
Network Operations Management, provided a list of plant-to-plant highway contract
routes he wanted considered for elimination or consolidation. A total of 978 trips were
operated under the 90 Northeast Area contracts. In preparation for our work, we
provided the area transportation manager in the Northeast Area with the list of contracts
we intended to audit. During our work, we interviewed officials at headquarters and in
the Northeast Area; reviewed relevant Postal Service policies and procedures; visited
3 plants; interviewed managers and employees; observed and photographed
operations; analyzed data in the Postal Service Transportation Information Management
Evaluation System; evaluated mail volume and critical entry times for First-Class and
Priority Mail; and analyzed all 978 trips. Work associated with the Northeast Area was
conducted from July 2002 through November 2002 in accordance with generally
accepted government auditing standards, and included such tests of internal controls,
as were considered necessary under the circumstances. We discussed our findings
with appropriate management officials and included their comments, where appropriate.

                                   Prior Audit Coverage
Our audit report, Highway Network Scheduling – Pacific Area (Report Number
TD-AR-02-003), dated September 24, 2002, identified 158 highway contract trips we
thought could be eliminated, and consequently result in savings to the Pacific Area of
about $4.5 million. Management agreed with 124 trip terminations, but subsequently
made certain substitutions they considered appropriate. Although local plant managers
disagreed with 34 trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all cancelled trips, as well as the
resulting savings. We considered management’s actions responsive to our
recommendations.

                                        Audit Results
Unnecessary Highway Contract Trips. Our audit revealed that the Postal Service
could save about $777,000 over a 2-year period on Northeast Area highway contracts
by canceling 18 unnecessary trips. The trips could be terminated because trip mail
volume was low, and mail could be consolidated on other trips without negatively
affecting service. The cost savings we identified were net of contract cancellation fees
totaling approximately $16,000.

After we completed our analysis, we discussed the 18 trips with plant managers. The
managers agreed ten trips could be cancelled, but disagreed with our assessment of
another eight trips. The trip cancellation proposals are summarized on the next page:




                                                  2
                                       Restricted Information
Highway Network Scheduling – Northeast Area                                            TD-AR-03-002




                               TRIP CANCELLATION PROPOSALS

                   CANCELLATION                  NUMBER                    IDENTIFIED
                     CATEGORY                    OF TRIPS       APPENDIX    SAVINGS

       Trips we identified during audit work
       with which plant managers agreed.             10            A        $407,503

       Trips we identified during audit work
       with which plant managers disagreed.           8            B        $369,489

       Total                                         18                     $776,992



The plant managers disagreed with the eight proposals for various reasons--generally
that eliminating the trips would reduce operational flexibility or affect service. We
continue to believe the potential for trip cancellation exists, without jeopardizing service
or operational flexibility.

Recommendations

We recommend the vice president, Northeast Area Operations:

       1. Cancel the ten trips, which plant managers agree are unnecessary.

       2. Reassess the eight trips plant managers feel are necessary, cancel trips
          indicated by the reassessment as necessary, and document the reasons for
          retaining the other trips.

Management Comments

Management agreed with the intent of our recommendations. Regarding the ten trips
we identified for elimination in recommendation 1, management stated they had already
eliminated nine trips and two additional trips will be eliminated by January 4, 2003.
They also stated that most cancellations were as agreed during our audit, but that they
had made certain substitutions they considered appropriate. Regarding the eight trips
we identified for elimination in recommendation 2, but with which local plant managers
disagreed, management stated they would reassess the recommendations, and retain
or eliminate the trips as appropriate. Finally, management stated that at the completion
of their work, they would notify the OIG of all cancelled trips, and of the resulting cost
savings. Management’s comments, in their entirety, are included in Appendix C of this
report.




                                                  3
                                       Restricted Information
Highway Network Scheduling – Northeast Area                                 TD-AR-03-002



Evaluation of Management Comments

Management’s comments are responsive to our recommendations. Management’s
actions taken or planned should correct the issues identified in the report.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, or need additional information please contact Joe Oliva,
director, Transportation and Delivery, at 703-248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    Susan M. Duchek




                                                  4
                                       Restricted Information
Highway Network Scheduling – Northeast Area                                                            TD-AR-03-002



                                                APPENDIX A
                                 TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                      WHICH AREA MANAGERS AGREED
  Highway                                                                             Estimated              Estimated
  Contract                                                                             2 Year   Indemnity       Cost
   Route             Trip Number                       Origin/Destination               Costs      Fees       Savings
02121            5 and 6                      Boston Airmail Center to Portland and    $219,332     $9,138     $210,194
                                              Return
021L2            1 and 2 or                   Boston to Westborough and Return           68,332      2,847       65,485
                 3 and 4
024L2            19 and 20 or                 Northwest Boston to Boston and             60,012          0       60,012
                 23 and 24                    Return
024L2            33 and 34                    Northwest Boston to Boston and              8,548          0            8,548
                                              Return
068L5            15 and 16                    Stamford to John F. Kennedy Airmail        63,264          0       63,264
                                              Center and Return
Total            10 Trips                                                              $419,488    $11,985     $407,503




                                                                   5
                                                        Restricted Information
Highway Network Scheduling – Northeast Area                                                   TD-AR-03-002



                                                APPENDIX B
                                 TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                    WHICH AREA MANAGERS DISAGREED
 Highway                                                                      Estimated            Estimated
 Contract                                                                      2 Year    Indemnity   Cost
  Route       Trip Number                      Origin/Destination               Costs       Fees    Savings
060L6         1 and 2            Hartford to Westborough and Return             $120,792         0  $120,792
064AE         3 and 4            Southern Connecticut to Bronx Facility and      150,190         0   150,190
                                 Return
01543         5 and 6            Central Massachusetts to Westborough and        21,694      $903       20,791
                                 Return
01543         7 and 8            Central Massachusetts to Natick and Return      81,094      3,378      77,716
Total         8 Trips                                                          $373,770     $4,281    $369,489




                                                                6
                                                     Restricted Information
Highway Network Scheduling – Northeast Area                     TD-MA-03-002



                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                  7
                                       Restricted Information
